No. 21-

In The Supreme Court Of The United States

VINCENT MCFADDEN,
Petitioner,
v.
STATE OF MISSOURI,

Respondent.

 

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF MISSOURI

 

PETITIONER’S MOTION TO PROCEED
IN FORMA PAUPERIS
Petitioner Vincent McFadden respectfully requests leave to proceed in forma pauperis.
McFadden was declared indigent and provided publicly appointed counsel by the State of Missouri
for the entirety of state court proceedings pursuant to Chapter 600 of the Missouri Revised Code.
Petitioner also provides the attached indigency affidavit. Pursuant to Sup. Ct. R. 39(1), Petitioner

therefore moves to proceed with the filing of his Petition for Writ of Certiorari in forma pauperis.
      

Capital Habeas Unit,
Federal Public Defend
Western District of Missouri
1000 Walnut, Suite 600
Kansas City, MO 64106

Laurence Komp@fd.org

(816) 471-8282

 

*Counsel of Record

Counsel for Petitioner
